<html>
<title> - OVERSIGHT OF STATE-RUN JUVENILE CORRECTIONAL FACILITIES KNOWN AS `BOOT CAMPS'</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
OVERSIGHT OF STATE-RUN JUVENILE CORRECTIONAL FACILITIES KNOWN AS `BOOT 
                                 CAMPS'

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2007

                               __________

                           Serial No. 110-127

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
39-706 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           DECEMBER 13, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Robert C. ``Bobby' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     4

                               WITNESSES

Ms. Adora Obi Nweze, President, Florida NAACP, Miami, FL
  Oral Testimony.................................................     9
  Prepared Statement.............................................    12
Ms. Doris MacKenzie, Professor, University of Maryland, College 
  Park, MD
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
Ms. Audrey Gibson, State Representative of Florida, District 15, 
  Jacksonville, FL
  Oral Testimony.................................................    33
  Prepared Statement.............................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     5

                                APPENDIX

Material Submitted for the Hearing Record........................    47


OVERSIGHT OF STATE-RUN JUVENILE CORRECTIONAL FACILITIES KNOWN AS `BOOT 
                                 CAMPS'

                              ----------                              


                      THURSDAY, DECEMBER 13, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:37 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Conyers, Johnson, Jackson 
Lee, Gohmert and Coble.
    Also Present: Representatives Meek and Corrine Brown of 
Florida.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Rachel King, Majority Counsel; Mario Dispenza (Fellow), BATFE 
Detailee; Kimani Little, Minority Counsel; and Veronica Eligan, 
Majority Professional Staff Member.
    Mr. Scott. The Subcommittee on Crime, Terrorism, and 
Homeland Security will come to order.
    I would first like to welcome our new Ranking Member, Judge 
Gohmert, who is taking over for my Virginia colleague, Randy 
Forbes. We have worked together on a number of things, and we 
look forward to working with you on this Subcommittee.
    I would like to welcome everyone to the hearing regarding 
State-run juvenile correction facilities known as ``boot 
camps.'' Boot camps are modeled after military training camps 
and are considered as an alternative to conventional juvenile 
institutions, instilling discipline, structure and education in 
a manner that youths are not receiving at conventional school 
and in their home environment. Although the boot camp concept 
has its advocate, the reality is that we have had widespread 
reports of abuse by camp employees and reports of several 
fatalities at camps around the country.
    The system is simply not performing as intended, and 
children in many of these camps are in danger. One of the most 
recent high profile deaths is that of Martin Lee Anderson who 
died in a Florida boot camp on January 6, 2006. His case 
garnered significant public attention because there was a 
videotape of guards beating him because they believed that he 
was faking illness to get out of exercise. After beating him, 
the guards forced him to inhale ammonia smelling salts. When he 
lost consciousness, the guards realized that he was seriously 
ill. But by the time medical help had arrived, it was too late 
to save his life. The guards and a nurse were charged with 
manslaughter and gross neglect. But in October 2007, all were 
acquitted of all charges. However, the case was the impetus to 
shut down some of the juvenile boot camp facilities.
    According to Professor Doris MacKenzie from the University 
of Maryland Department of Criminology, who is with us today, 
poor training, inadequate oversight and misguided policies have 
caused the abusive environments that many boot camps have 
become. Twenty States still operate boot camps despite the 
ongoing problems with them. The most recent death occurred in 
Colorado in May of this year to a 15-year-old boy named Caleb 
Jensen died from an untreated staff infection while 
incarcerated at Alternative Youth Adventures, AYA, in Colorado. 
He contracted an infection, realized he was ill and told 
facility employees over a period of several days that he was 
not well. But his claims were ignored. And by the time the 
counselor sat down to talk to him, Caleb slumped over and died 
from the very illness he had been complaining about for those 
days. Although Colorado revoked AYA's license to operate, no 
charges have been filed against any of the employees.
    Another example of boot camp deaths include 14-year-old 
Gina Score who collapsed during a forced run at a South Dakota 
boot camp. She was 5'4'' and weighed 226 pounds, obviously 
unfit for rigorous exercise, yet the guards forced her to run 
2.7 miles in 77 degree heat with 81 percent humidity. She 
passed out. Guards believed that she too was faking it, and 
they left her on the ground for 3 hours until she died of heat 
stroke, her body temperature having reached 108 degrees. 
Employees were charged with child abuse but were acquitted.
    Then there was Travis Parker, 13-years old who was 
incarcerated in a Georgia boot camp when he was killed by 
guards who held him to the ground for more than an hour while 
he pleaded for his asthma inhaler. They didn't give it to him 
because they said he had a habit of asking for an inhaler, 
quote, whenever he was restrained. Six camp employees were 
indicted for felony murder, child cruelty and involuntary 
manslaughter, but the district attorney dropped all of the 
charges after a judge ruled in favor of the defendants in a 
pretrial motion.
    One thing in common to Martin Lee Anderson, Gina score, 
Travis Parker and Caleb Jensen is that none of the responsible 
guards were ever held criminally liable for the children's 
deaths. This hearing will focus on whether States have begun to 
take adequate steps to ensure the protection of the civil 
rights of those who are committed to State-run boot camps and 
whether the boot camp concept has merit from a criminal justice 
policy perspective.
    Right now I would like to recognize our distinguished 
colleague, the Ranking Member of the Subcommittee, Congressman 
Louie Gohmert from the First Congressional District of Texas.
    Mr. Gohmert. Thank you Chairman Scott. And I want to thank 
the witnesses for being here. I am looking forward to working 
with Chairman Scott and other Members of the Subcommittee on 
the important issues of this Subcommittee's jurisdiction. I 
also want to express my admiration for my colleague, former 
Ranking Member Randy Forbes of Virginia, who served us this 
year as the Ranking Member of the Subcommittee. It is my hope, 
Mr. Chairman, you and I can maintain as effective a 
relationship as you and Ranking Member Forbes did earlier in 
this Congress.
    Today's hearing on State-run juvenile facilities does 
concern me to some extent with regard to the scarce use of 
oversight resources that we have. I am tremendously personally 
sympathetic for anyone who has suffered, which has been laid 
out so articulately by the Chairman. And we are all aware of 
the tragic death of a juvenile at Panama City and the acquittal 
of the boot camp guards. That matter is now under Federal 
investigation, sounds appropriate, and we should do nothing to 
interfere with that investigation.
    But there is not a single correctional boot camp maintained 
by the Federal Government. The prosecution and confinement of 
juveniles is almost exclusively a State issue. Approximately 93 
percent of all criminal prosecutions are conducted by State and 
local prosecutors and the percentage of State prosecutions of 
juveniles is even higher than that. According to the Bureau of 
Prisons, there are only 178 juveniles in the entire Federal 
prison system. Because there are so few juveniles in the 
system, the Bureau of Prisons does not even maintain a facility 
for juveniles and instead contracts with State, local and 
private entities for the confinement of juvenile offenders in 
the Federal system.
    Prison boot camp programs started in the 1980's and were 
started for young male offenders originally convicted of 
nonviolent offenders. As the name suggests, boot camp programs 
are modelled after military boot camp training and involve a 
daily regimen, usually of physical training, work assignments 
and vocational training. Over half the States developed boot 
camp programs in the hopes of lowering the rates of recidivism 
among released offenders and reducing costs of housing 
offenders in traditional juvenile detention facilities and 
reducing crowding in those detention facilities. By most 
measures, the boot camp experiment seems to have met with mixed 
success in meeting those three goals. In recent years, some 
States have made the determination that the benefits are 
outweighed by the costs or problems with their boot camp 
programs. Other States determined they are better off keeping 
their boot camp programs. Neither case, I believe and hope that 
it will ultimately be agreed that those decisions should be 
made without undue influence from those of us in the Federal 
Government.
    Having been on the juvenile board of our county in Texas 
where I served as a district judge and later a chief justice, 
we looked at the proposition of having a day boot camp. We 
looked at other boot camps, talked to a lot of people that were 
involved in boot camps. We liked the idea of a day boot camp 
better than a residential boot camp and ultimately went with 
that and found there were many benefits from that.
    But as I think I understand from our witnesses and some of 
the indications, if all you do is a military-style regimen of 
physical activity, you are missing the entire boat. It has to 
be mixed with education and other assistance, vocational 
training, things like that, in order to help juveniles reduce 
recidivism. And additionally, I think everyone would agree, if 
you are going to have a program like that, it does require 
adequate accountability, monitoring and sometimes these 
programs have not had that. In any event, I look forward to 
hearing the testimony of the witnesses. And I will yield back 
the balance of my time, Mr. Chairman.
    Mr. Scott. Thank you.
    The Chair recognizes the Chair of the full Judiciary 
Committee, Mr. Conyers, for a statement.
    Mr. Conyers. Thank you, Chairman Scott. And I welcome Judge 
Gohmert to the Subcommittee as the new Ranking Member. And this 
is a very active Committee. And this subject matter is one that 
leads me to briefly say the following: I hope this hearing and 
any others that may follow it lead to a reexamination of the 
concept and purpose of juvenile boot camps. It has been 
observed already that these facilities don't seem to be any 
more successful than other types of juvenile justice programs 
and do little more or sometimes less to prevent recidivism. It 
is also noted that education and drug rehabilitation programs 
play a major role in helping young people rehabilitate 
themselves. The second thing on my mind as we start these 
hearings is that we need to ensure that it is a crime for a 
child to be killed while being detained in a boot camp. We must 
ensure that children are not killed in boot camps and that 
there is adequate investigation and prosecution if harm, 
certainly death, occurs as a result of some mis-running or poor 
training on the part of those that are involved in these boot 
camps.
    I would like to recommend to this Committee that we inspect 
and visit every boot camp in the United States of America, 
whether it is State or private. I mean, this isn't a matter of 
opinion of how we--whether you like boot camp or lump boot 
camps. These things, to me, at the outset--and I try to keep an 
open mind about everything I do here--have been a grievous 
mistake based upon a false criminal justice premise. And so I 
am anxious to hear from you who have been closer to this than 
me.
    And I ask unanimous consent to put my statement in the 
record.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Without objection.
    The gentleman's time has expired. Thank you very much, Mr. 
Chairman, for your statement.
    We have three witnesses with us today. Representative 
Hastings was here earlier to introduce our first witness, but 
we have many Representatives from Florida that have an interest 
in this hearing. And the first witness will be introduced by 
the gentleman from Florida, Mr. Meek.
    Mr. Meek. Thank you so very much Mr. Chairman, and I am 
honored to be here to not only introduce the witness but what I 
consider a constituent in my district also and a great leader 
in the country. Adora Obi Nweze, president of the Florida NAACP 
and also a member of the national board has been a long-time 
educator in Miami/Dade County and also beginning her work as a 
teacher and working her way up to regional supervisor. I had an 
opportunity to work with Ms. Nweze when I was a member of the 
State legislature where we had a number of issues. And she has 
been a part of numerous committees and projects and building 
partnerships between the Florida Department of Education, also 
the Florida Department of Health, Corrections, Juvenile 
Justice, Elderly Affairs and Emergency Management. She has a 
bachelors degree from Fayetteville University and a masters of 
education degree from the University of Miami. She is also 
certified in the State of Florida in areas of elementary 
education, educational leadership guidance and counseling, 
social studies, mental retardation and specific learning 
disabilities. And Mr. Chairman, I believe that she will be able 
to give the full scope of the very issue that we are talking 
about here today. Thank you.
    Mr. Scott. Thank you. And I understand that she has a plane 
to catch so she will not be able to be here for the full 
hearing. And we apologize for the delay. We are almost 2 hours 
late in starting.
    Our second witness will be Dr. Doris Layton MacKenzie, who 
is a professor at the Department of Criminology and Criminal 
Justice at the University of Maryland and director of the 
Evaluation Research Group. She has an extensive publication 
record in the criminal justice area, including, among other 
issues, what works to reduce crime in the community, inmate 
adjustment to prison, impact to intermediate sanctions on 
recidivism and boot camp prisons. She has directed research 
projects on, among other topics, multi-State study on 
correctional boot camps and descriptive study of female boot 
camps. She has a bachelors degree masters degree and doctorate 
each in psychology and each from the University of 
Pennsylvania.
    Our third witness will be introduced by the gentle lady 
from Florida, Ms. Corrine Brown.
    Ms. Brown. Thank you, Mr. Chairman, and thank you for 
holding the important hearing today at the request of the 
Florida delegation. It is a pleasure for me to introduce 
Florida State Representative Audrey Gibson from my home State 
of Jacksonville, Florida. She is a native of Jacksonville, 
north side, she attended the local school in Jacksonville and 
graduated from Florida State University with a bachelors degree 
in criminology. She is the proud mother of an adult daughter 
and two sons. During her career, Representative Gibson has 
worked as a congressional district administrator and as a 
business community liaison. Representative Gibson sits on 
numerous Committees and is affiliated with many worthy causes. 
In her current capacity as State representative of District 15, 
she is committed to fighting for her constituents as well as 
all people of the State of Florida. She is also the recipient 
of many awards and recognition, including the Girl Scouts of 
Gateway Council, in 2006, Women of Distinction award, and most 
important, 2006, Legislator of the Year award from the North 
Side Florida Association of Realtors. It is my honor to 
introduce Ms. Gibson who I have known all her life.
    Mr. Scott. Thank you. Thank you, Representative Brown. All 
of the witnesses have submitted statements, and each of the 
witnesses' complete written statements will be made as a part 
of the record. But I would ask each of the witnesses to 
summarize your testimony in 5 minutes or less. And to help you 
stay within that time, there is a lighting device on the table. 
When you have 1 minute left, the light will go from green to 
yellow, and then finally to red when the 5 minutes are up. We 
will now hear from our first witness who I have known for a 
long time, Ms. Nweze.

           TESTIMONY OF ADORA OBI NWEZE, PRESIDENT, 
                    FLORIDA NAACP, MIAMI, FL

    Ms. Nweze. Good evening, Mr. Chairman, Members of the 
Subcommittee, and to the distinguished Congressman Conyers and 
distinguished guests.
    My name is Adora Obi Nweze, and it is my honor to be here 
today in the capacity as president of the Florida State 
Conference, NAACP. With more than 50 NAACP units in the State 
of Florida, we are proud to represent and pursue the civil 
rights interests of all Floridians of color throughout the 
State. I would like to take this opportunity to thank 
Congressman Alcee Hastings, Congresswoman Corrine Brown and 
Congressman Kendrick Meek for their leadership in pursuing this 
matter and bringing it to the attention of the Subcommittee.
    In addition to serving as president of the Florida State 
Conference since 2000, I am currently on the NAACP National 
Board of Directors and have served as a branch president in 
Miami and Opa-Locka for 13 years. Mr. Chairman, Members of the 
Subcommittee, I was born and reared in the Miami area, and I am 
a Florida girl from my heart, and I must tell you that in all 
my years of community activism in Miami and throughout the 
State, that the mistreatment of African American youth by the 
State of Florida is perhaps the one issue that has raised the 
most concern, the most anxiety and the most outrage among 
African Americans throughout the State.
    Black Floridians are outraged that the State continues to 
neglect, harm and even kill our youth and to appear to get away 
with it. I am therefore here today to ask you to use your 
oversight powers to urge the United States Department of 
Justice to launch a thorough investigation of the State of 
Florida's Juvenile Justice System. It is incumbent upon the 
Federal Government to ensure that the rights of Florida's 
children are protected. And from our point of view, it does not 
appear they are.
    According to the latest data, while just over 21 percent of 
Florida's children are African American, more than 42 percent 
of the children who are involved in the Florida Department of 
Juvenile Justice in fiscal year 2006 were Black. Similarly, 
while just over 32 percent of all of Florida's children are 
racial ethnic minorities, more than 55 percent of those 
involved in DJJ in 2006 were children of color. This disparate 
amount means that the NAACP and all Floridians concerned about 
the civil rights of our children is disproportionately 
concerned about how our younger citizens are treated by the 
Florida DJJ.
    Every day it seems the Florida NAACP unit receives a 
complaint about a child in Florida's Juvenile Justice System 
who is being abused, harmed or neglected. Perhaps the best 
known case of the mistreatment of our youth in recent years is 
the case of Martin Lee Anderson. In 2006, Martin was a 14-year-
old. Of course, you have gone over that and you know that 
story. The ending of that story, however, is that there is now 
an investigation by the Federal division. We hope that that 
will be coming to some resolution, that would be responsive to 
the issue. At first, the official State autopsy determined 
Martin had died as a result of complications from sickle cell 
anemia. However, a second autopsy done at the request of 
Martin's family in conjunction with the NAACP found that Martin 
had died of suffocation due to the action of the guards.
    What made Martin's death unique is not that he died at the 
hands of State officials while in their custody but that his 
death was videotaped, which enabled the entire world to witness 
the beating, torture and eventual killing of a 14-year-old boy. 
For your information, the video can be seen at the NAACP Web 
site at www.naacp.org.
    I would like to take and say at this point that the U.S. 
Department of Justice through Mr. Thomas L. Battles, a regional 
director of DOJ's Community Relations Service, has provided the 
NAACP with invaluable assistance throughout the Martin Lee 
Anderson case, specifically Mr. Battles and his office provided 
vital technical assistance to us as he planned marches, 
protests and town hall meetings.
    And finally, as you know, the result is what it was: The 
legislature in April of 2006 passed the Martin Lee Anderson Act 
closing the State's five juvenile boot camps. The legislation 
was signed into law by then Governor Jeb Bush on July 1, 2006. 
I would hasten to say, however, that this legislation only 
affected the State-run juvenile boot camps. What we must 
understand is that privately run State-funded juvenile 
detention facilities are still plagued by abuse and neglect. 
And the people who are suffering the most are our children. 
This was too late for Martin; as well as for Willie Durden, who 
died at age 17 at Cyprus Creek Juvenile Correction Center; Omar 
Paisley, who died at age 17 at the Miami-Dade Regional Juvenile 
Detention Center; Daniel Matthews, who died at age 17 at 
Pinellas Regional Juvenile Detention Center; Brian Farmer, who 
died at age 17 at the Okeechobee Officer Correctional Center; 
Shawn Smith, who died at age 13 at the Volusia Regional 
Detention Center; and Michael Wiltise who died at age 12 at 
camp E-Kel-ETU in Marion County, Florida. All of these young 
men, these children, died between 2000 and 2006 while in the 
custodial care of the State of Florida. It is important to me 
that we state the names of each of these young people for the 
record as their deaths are quickly becoming forgotten, just 
like them. The juvenile justice system in Florida has the 
unfortunate habit of dehumanizing the children who were sent 
there just when they need to be shown care, love and attention 
and taught that they are worth something.
    And so I thank you, Mr. Chair, Members of the Subcommittee, 
the others who have worked so hard to try to make sense not 
only of Martin's death as well as other children who have died 
in custody. As president of the Florida NAACP as well as an 
educated mother and grandmother, I am committed to working with 
you to ensure that every American youth, regardless of their 
race, is given a decent chance. Thank you again. I will be 
happy to answer any questions.
    [The prepared statement of Ms. Nweze follows:]

                 Prepared Statement of Adora Obi Nweze

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Our normal procedure is to hear from all witnesses before 
we respond to questions, but because we are 2 hours late and 
Ms. Nweze has to leave, we will go out of order. And if people 
have specific questions for her, we will entertain those at 
this time.
    And I just have one. The Florida NAACP has received many 
complaints for the juvenile system. Is that from boot camps 
only or from other parts of the juvenile system?
    Ms. Nweze. It is including all of the facilities, not only 
boot camps but certainly the detention centers, some who--
residential as well as day programs.
    Mr. Scott. Thank you.
    Mr. Gohmert.
    Mr. Gohmert. Well, thank you. And it is an honor to have 
someone who has dedicated their life to helping others so much 
as you have.
    I was a little concerned when I--in your statement earlier, 
you said you were concerned about the children of color and the 
mistreatment of African American youth. So I was relieved to 
hear at the end when you said you were concerned about every 
American youth, regardless of race. And we appreciate--
obviously your life speaks volumes about what you have done to 
try to help others. And we may disagree about ways to try to 
help them. But clearly you have a heart for helping others. And 
I thank you for being here.
    Mr. Scott. Thank you. Mr. Conyers.
    Mr. Conyers. Thank you very much.
    Do we need boot camps?
    Ms. Nweze. Well, research has shown that they don't work. 
They really don't work as they are presently structured.
    Mr. Conyers. Because we have got enough wrong with the 
criminal justice system and youth, and the juvenile system 
tacked on becomes another huge part of the problem.
    Ms. Nweze. Right.
    Mr. Conyers. And of course, it is all people involved, but 
it is Black people mostly the victims. Now, let's not fly out 
of here thinking that we don't know that.
    Ms. Nweze. Right.
    Mr. Conyers. And so the question for me--and then this 
Committee has, goodness knows, a big job. But this is a small, 
tiny part of our examination of the criminal justice system.
    I want to hear the case for boot camps. And I am trying to 
be neutral about it, but I haven't been around here this long 
being neutral. It comes out of a misguided theory. And I don't 
expect you to be able to go into this. But I want everybody to 
follow this with me, and that is why we are on television----
    Mr. Scott. I think our next witness will have a lot to say 
about boot camps.
    Mr. Conyers. We want to get down--this is not a meeting to 
find out how to improve boot camps. I mean, do they have a 
worthwhile purpose or not? And to me, that is the jumping-off 
point. And so I join in with the commendations of the Ranking 
Member of the Committee to thank you for your testimony.
    Ms. Nweze. Thank you.
    Mr. Scott. The gentleman from North Carolina.
    Mr. Coble. Thank you, Mr. Chairman. I will be very brief. I 
want to put a question to the witness.
    Good to have you all with us, by the way.
    If she doesn't know the answer, maybe I will submit the 
question to the Chair. Boot camps are operational in how many 
States? Does anyone know that?
    Mr. Scott. Approximately 20 right now.
    Mr. Coble. Twenty?
    Mr. Scott. I think.
    Mr. Coble. And Ms. Nweze, I will assume logistically the 
way it works, a person is prosecuted and convicted, and then, 
at that point, the court of jurisdiction assigns the offender 
or the defendant to a boot camp? Is that the way it goes 
logistically in Florida?
    Ms. Nweze. I am sorry. I didn't understand your question. I 
heard you. But you need to repeat it so I am sure.
    Mr. Coble. I said logistically a juvenile is prosecuted and 
convicted. And upon his conviction, I presume the court of 
jurisdiction would then assign the defendant or the convicted 
defendant to an appropriate boot camp. Is that the way it 
works?
    Ms. Nweze. Generally, yes.
    Mr. Coble. Okay. I have no further questions.
    Mr. Scott. Thank you, Ms. Nweze, for your testimony and for 
your responses. I regret that we had to--we were so late 
getting started because of votes on the floor. But I appreciate 
your work on this issue, on the State NAACP and on the national 
board. I have seen you at many conventions, and it is good to 
see you today.
    Ms. Nweze. Yes, sir. Thank you, sir.
    Mr. Scott. Thank you.
    Professor MacKenzie.

           TESTIMONY OF DORIS MacKENZIE, PROFESSOR, 
            UNIVERSITY OF MARYLAND, COLLEGE PARK, MD

    Ms. MacKenzie. I am honored to be here. I thank the 
Committee, Subcommittee for inviting me.
    I began studying correctional boot camps in 1987. And when 
I talk about correctional boot camps, I am including both camps 
for both juveniles and adults. At that time, I was awarded a 
grant from the National Institute of Justice, and I have 
continued to study them since that time. Most recently, the 
University of Maryland was awarded a grant, and I studied the 
correctional boot camp for adults at Maryland. I have then had 
the opportunity to visit a large number of these camps to 
observe activities; to consult with staff, administrators and 
juveniles; review evaluations; collect data. I have visited 
programs for males and females; for juveniles and adults; and 
in Federal, State and local jurisdictions.
    Beginning my research on the boot camps, I began by asking 
people what they expected to be accomplished by the boot camps. 
They had many goals. But the primary goal was always--almost 
always--recidivism. So I began studying the recidivism and most 
recently have done a meta-analysis, examining all the studies 
that we could identify that have examined the outcome of 
recidivism of boot camps. They compared people that went to the 
boot camps, juveniles and adults, to people that had some other 
sentence or spent time in a facility or in the community. This 
was a large number of juveniles and adults that were included 
in these studies. We only used studies that were considered to 
be adequate scientifically. So the research designed was 
strong. If the major goal of boot camps is to reduce 
recidivism, there is little reason to continue these programs. 
They do not reduce recidivism. This has been the continual 
result that I found from my earliest studies to this 
examination of all the studies that I could find in a meta-
analysis. There is no evidence that they successfully reduced 
recidivism.
    People do have other goals of the programs though. And so I 
have also tried to examine the other goals. One of them was to 
reduce prison crowding. People expected the programs to reduce 
prison crowding, partly because they would reduce recidivism, 
which of course they don't, but also by releasing the offenders 
and delinquents early if they took part in this rigorous boot 
camp program. The trouble is that many of the judges decide to 
send juveniles and adults to the boot camp instead of giving 
them an alternative community treatment. So instead of sending 
them to probation, they end up putting them into a prison, 
incarcerating them in the boot camps or net widening.
    The other area that we studied in the boot camps was to 
look at the environment of the boot camps. We did find some 
positive results from the boot camps. If we look at the 
environments, the juveniles and staff evaluated the program as 
more positive, the boot camp programs. The trouble is, we were 
comparing them to the traditional facilities of the juveniles 
where there are large facilities, not small--not small 
programs, as they had for the boot camps. You also must 
remember, when we study in our lab in the boot camps, we are 
allowed in those that are probably less apt to prove to be 
abusive and have better trained staff.
    I have just recently done a review of what works in 
corrections, looking at a large number of correctional 
programs, including the boot camps. I identified 284 studies 
that have adequate research designs. And that is very important 
because much research in corrections is very poorly done. I can 
conclude that programs that are based on control, punishment, 
strict rules, confrontations similar to boot camps or scared 
straight programs are not effective.
    However, we do have programs that are effective. These are 
the programs that we have referred to as rehabilitation, 
education, drug court, drug treatment, cognitive skills 
programs. We do have programs that reduce recidivism. But boot 
camps are not something that reduces recidivism.
    For years I have said we should consider boot camps because 
we could put therapy within the camps. But looking at the 
recent number of deaths and injuries in these camps, I have 
changed my mind, and I no longer support--I think it is too 
dangerous to continue with the boot camps. We don't have a 
justification.
    [The prepared statement of Ms. MacKenzie follows:]

                 Prepared Statement of Doris MacKenzie

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you very much, Professor MacKenzie.
    Representative Gibson.

 TESTIMONY OF AUDREY GIBSON, STATE REPRESENTATIVE OF FLORIDA, 
                 DISTRICT 15, JACKSONVILLE, FL

    Ms. Gibson. Thank you, Mr. Chair, and Members of the 
Committee. And certainly I want to thank my congresswoman for 
inviting me today.
    I want to cover a couple of points that I kind of took out 
of my testimony. First and foremost, I want to make sure that 
it is known that I don't believe in coddling criminals. I do 
believe in personal responsibility, but I believe that it has 
to be taught. And I don't think that boot camps in any way, 
shape or form teach that to our young people.
    I also think that the best opportunity we have to reduce 
our increase in our corrections systems throughout the United 
States is by rehabilitating juveniles. I think that we all know 
that the African-American population is over represented in our 
corrections system for adults as well as juveniles. And so 
therein lies, I think, the comments that there is great concern 
for African American children while there is concern for all 
children.
    I don't think that there is enough mental health 
programming within the confines of a boot camp. And largely, 
most of these children that go into boot camps are poor 
children; their health has not been monitored over the years; 
and so they go into a program that primarily focuses on 
rigorous physical activity.
    The other issue has to do with it being run by sheriffs' 
offices, or as was stated earlier, it is a State-run type of 
program, which doesn't in my mind mean that we shouldn't have 
national outcry, but we certainly should have standards or 
should have had, because I certainly don't believe or support 
the continuation of boot camps. But there has to be--or there 
should have been, I am sorry, a standard of training within the 
facilities so that we did not have the deaths that we have had. 
And that not only includes the medical component, which has 
been insufficient, but also the personnel who are used to 
handling adults and not children. And certainly that is what 
those young people are; they are developing children.
    I think it is far better or we are far better served if we 
do have programs like multisystemic therapy, which we utilize 
in Florida. And I think they also utilize it in Mississippi, if 
I am not mistaken. Functional family therapy, because taking a 
juvenile into a setting that doesn't include making sure that 
the family is treated, if you will, it doesn't complete the 
cycle. And so in order to recognize reduced recidivism rates, 
then we need to certainly include the family and, as was 
mentioned earlier, make sure that there is an educational 
component; there is an employment training component. Because 
we are trying to prepare the person--this young person who has 
gotten into trouble--not to go into the correctional system. We 
are trying to prepare that person to come back and be 
productive in the community. And boot camps certainly do not do 
that. In terms of the dollars being spent being State dollars, 
if you will, I wrote a note that certainly there are Federal 
dollars that fund juvenile justice programs. And those dollars 
that are State dollars may be used as a match to draw down 
those dollars from the Fed. And in looking at whether or not 
someone wants to continue boot camps or not, recognize the 
national importance of this issue, certainly we shouldn't be 
using State dollars as match dollars to draw down Federal 
dollars if any of the State dollars are going to be used for 
boot camps as we continue on. Let's see.
    As I said before, as my time runs out, I think we are far 
better served, and we have far more statistics that show 
prevention programs work, therapy programs work, wilderness 
programs even, like Outward Bound, where a young person can 
find out where their strengths and talents lie and then draw on 
those to take them through life. We have a high murder rate 
going on right now in Jacksonville. And I think it certainly 
involves a lot of our young people. I think adults as well as 
children could certainly benefit from the inclusion of conflict 
resolution in any program. And with that, I thank you very 
much.
    [The prepared statement of Ms. Gibson follows:]

                  Prepared Statement of Audrey Gibson

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Representative Gibson.
    Now we will have rounds of questions from Members. We will 
limit ourselves to the 5 minutes. And I will recognize myself 
first.
    Professor MacKenzie, just on the question of recidivism, 
you indicated on several occasions that there is no reduction 
in recidivism at boot camps compared to other facilities. You 
also have suggested that boot camps, like their sister programs 
at military schools, are not conducive to assisting teens to 
make and keep long-term change. Is that accurate? And if so, 
could you expand on that?
    Ms. MacKenzie. That is accurate for the boot camps, the 
adjudicated delinquents and offenders, there is no evidence--
the overall evidence is that they do not reduce recidivism. 
They don't change the delinquents so that they don't continue 
in criminal activity.
    Mr. Scott. In terms of safety, did you study the safety of 
the boot camps?
    Ms. MacKenzie. We studied the perceived safety of the boot 
camps from the perspective of juveniles in the camps and staff. 
And we compared that to traditional facilities and safety. The 
juveniles in the boot camps felt they were safer in most areas. 
I think that reflects the fact that the strict rules keep them 
from being hurt by other juveniles in the facility. They were, 
however, more afraid of staff. So there was some fear of staff.
    Mr. Scott. Well, Ms. Gibson, many children have died in 
boot camps. Is there a difference in the death rate at boot 
camps as opposed to other facilities?
    Ms. MacKenzie. That is really where we need some research. 
We do not have that research. The other thing is, we don't 
really have a very good handle on how many boot camps are still 
there because there are State boot camps, but there are also 
many that are run by local jurisdictions. So we need to know 
where they are and then compare the injury and death rates in 
the camps to the other facilities where these young people 
would be.
    Mr. Scott. You mentioned local, local government-run. What 
about privately run?
    Ms. MacKenzie. And there are also privately run, usually 
contracted with government.
    Mr. Scott. And we don't know whether or not there is a 
difference in private or local-run facilities in terms of 
safety?
    Ms. MacKenzie. As far as their reported safety, we did not 
find any differences between the juvenile programs that were 
run by public or private, not for profit.
    Mr. Scott. And if there is no difference in recidivism, are 
the boot camps cheaper than the alternatives?
    Ms. MacKenzie. The boot camps are only cheaper if the 
people are released after serving a shorter period of time. And 
the concern here is net widening. Many of the judges make the 
decision to send someone into the boot camp instead of an 
alternative, like probation. That makes it much more expensive. 
So some State systems for adults have used it to reduce their 
prison population. New York State in particular because of the 
Rockefeller drug laws has used their boot camp for adults to 
release people earlier. They reported some savings. But they 
have an enormous number of people that they put through the 
boot camp in a year, 5,000. In comparison, the small programs 
run for juveniles are probably not saving any money.
    Mr. Scott. Thank you.
    Representative Gibson, you serve on the Juvenile Justice 
Committee. Is that a subcommittee in the Statehouse?
    Ms. Gibson. Yes.
    Mr. Scott. You have gotten rid of all of the State-run boot 
camps. What happens to children now that would have been 
sentenced to a boot camp?
    Ms. Gibson. They are either house arrested--because boot 
camps in Florida were for nonviolent offenders. And so they are 
either house arrested or probation, community probation or 
detention centers.
    Mr. Scott. Has anyone ascertained whether or not there has 
been more or less crime as a result of the closing of the 
State-run boot camps?
    Ms. Gibson. Not that I am aware of.
    Mr. Scott. What can be done to make these boot camp--if we 
are not having boot camps, what can be made to deal with the 
safety of the children? Professor MacKenzie, we are still 
having some boot camps. Is there anything that can be done to 
enhance the safety?
    Ms. MacKenzie. Have strict requirements about the need for 
training the staff would be one of the first things. I think 
that, from my experience, many of the staff were not well 
trained to identify stress and physical and mental stress that 
the juveniles face in these boot camps. And I am very worried 
about how long the staff has training. I mean, it is very short 
periods of time. They are often given--they participate in some 
kind of training activity. And that just won't give them what 
they need.
    Mr. Scott. Thank you. My time has expired.
    Judge Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And let me just mention, our Chair of the Committee has 
stepped out. But he was going to address, he had indicated he 
wanted to hear evidence on both sides. And I can tell you, Mr. 
Chairman, we had tried to get some of the witnesses from 
programs that I am aware of in Texas that have had a good deal 
of success. And since we were not able to offer their airfare 
or travel expenses to get here, they didn't have the 
wherewithal to do so. They operate on tight budgets and just 
could not make the transition; plus they have small staffs, and 
it is difficult when you take somebody out for 2 days and it is 
not completely job related to what they are doing. But there is 
evidence out there, and I hope we will have a chance to get 
some of that additional evidence before the Committee.
    Dr. MacKenzie, you made the statement that--and in your 
written statement, it is in all capitalized letters, boot 
camps, ``do not reduce recidivism,'' and you went a step 
further here. And in your written statement, you said, ``I 
believe the research is clear on this.'' you went a step 
further than that, and always understand as I do that 
testifying falsely here is a crime. And I guess the old judge 
comes out when somebody makes a statement that is so bold. You 
went beyond that. You said, ``There is no evidence they reduce 
recidivism.'' so since I am familiar with some places where 
they have reduced recidivism, let me just ask you, are you not 
aware of one single boot camp anywhere in the Nation that has 
actually reduced recidivism?
    Ms. MacKenzie. I am aware of some boot camp studies that 
have shown a reduction in recidivism.
    Mr. Gohmert. I am talking about one boot camp anywhere in 
the country that itself reduced recidivism amongst those who 
have come through that boot camp.
    Ms. MacKenzie. The studies study a particular boot camp. 
So, yes, I would know--I do know of--offhand, I can't tell you 
exactly which States. But I can tell you, yes, there were some. 
And in the testimony, I reported that some did have lower 
recidivism from----
    Mr. Gohmert. And it seems, and you pointed this out in the 
study, it seems like--in those that have had some success, 
usually they incorporate more than just a physical regimen. 
They use the education and training, and the life skills has 
not always been terribly helpful, but there is a dimension of 
that that can be. And I wanted to be sure if you were aware of 
those or not. But you also said you were allowed in boot camps 
that were less apt to be abusive. Did you make attempts to be 
in boot camps you knew were more abusive?
    Ms. MacKenzie. We attempted to go into every juvenile boot 
camp that was in existence when we started the study of the 
environments of juvenile boot camps.
    Mr. Gohmert. Is that just in Florida or all across the 
country?
    Ms. MacKenzie. Across the country.
    Mr. Gohmert. That is a lot of boot camps. You made an 
inquiry----
    Ms. MacKenzie. I gave the numbers in here. It was about 48 
or 49 boot camps at that point that we could identify.
    Mr. Gohmert. Okay. Well, then, I notice the most recent 
study that you cited I think was 2001. Have you reviewed any 
study since then that are being cited?
    Ms. MacKenzie. Reviewed studies for the recidivism or----
    Mr. Gohmert. Well, the studies that were cited had the most 
recent ones. There were a couple of them I think that were 
2001. Those were the studies that were cited as footnotes to 
your statement. Did you have any other opinion to your 
statement of other studies?
    Ms. MacKenzie. The studies in the meta-analysis that we 
conducted, we conducted the meta-analysis 2 years ago. That is 
referenced on----
    Mr. Gohmert. Okay. My time is--okay. Thank you.
    But I do want to ask Representative Gibson--and thank you 
for coming. I know it is a hardship for anybody that comes up 
here and especially when you sit around like this for us. But I 
was concerned that it appears that Florida legislature has 
taken the step--and you have made indications of things that 
concerned you that, you know, the abuses obviously should 
require some action. But I just want to ask you, is the Florida 
legislature incapable of addressing boot camp problems unless 
the Federal Government tells you what and how to do?
    Ms. Gibson. Thank you for your question. I believe that 
what Florida did was change from a boot camp model to something 
called star academies. However, we had no takers with the 
change in the structure even though the dollar amount was 
there. And of course, it is a shared program between usually a 
sheriff's department and the State. And the reason we had no 
takers is because of the training. There is a different kind of 
training required to be a sheriff as it is to be over 
juveniles. There are different takedown methods taught and 
other kinds of training that individuals need to have when they 
work with juveniles. So we had no takers for the program.
    Mr. Gohmert. Okay. Thank you. But you feel like Florida 
could handle and legislate requirements for its own boot camps 
is really--or did you need the Federal Government to tell you 
how to do that?
    Ms. Gibson. Let me go back to what I believe I said in my 
initial comments, and if I didn't, I certainly meant to; that I 
believe that the issue of juvenile justice is a national issue. 
Children are children from State to State. And there needs to 
be standards put in place nationally so we don't have these 
kinds of issues. And I believe the Federal is national, and I 
believe there needs to be involvement. And we wouldn't be where 
we are today, I don't think, if we had national standards to 
deal with our juvenile criminals.
    Mr. Gohmert. And if we don't pass national standards, 
Florida, you are saying, would not be able to adequately take 
care of the boot camp issue within its own State?
    Ms. Gibson. Florida won't have any boot camps, first of 
all.
    Mr. Gohmert. Okay. Thank you.
    Mr. Scott. Thank you. The gentleman's time has expired. I 
believe the gentle lady from Texas came in next.
    The gentle lady from Texas is recognized.
    Ms. Jackson Lee. I thank the distinguished Chairman. You 
know, this is the kind of hearing I am just grateful that, as 
we have moved to the new 110th Congress and we are working with 
our colleagues, friends on the other side of the aisle, that we 
have been able to initiate questions like this. And I want to 
put firmly on the record my appreciation to Chairman Scott for 
giving us a very broad road map. I chair the Congressional 
Children's Caucus, and it is holistic in its approach entering 
programs, health issues, such as obesity, gun violence over the 
years that has been in place and children's exploitation. And 
so we look at things in a broad manner, and certainly we 
recognize that children have to be disciplined; they have to be 
rehabilitated. And when the boot camp first started maybe a 
decade ago, people were excited. CNN was covering it. It looked 
like it would be bite-your-tongue fun, a good way to discipline 
children. We didn't know that it was going to become a death 
trap. Or those who had the good intentions didn't know that, in 
places around the country, it would result in being a death 
trap for children.
    Now, I have just come off of the floor discussing the 
propensity and epidemic of youth violence. One on one, one of 
the most conspicuous examples, of course, was the four 
youngsters who broke into the home of Sean Taylor which 
resulted in his death. And I say that to recognize that we have 
a dual problem of violence perpetrated by youngsters, and then, 
of course, how do you save their lives? How do you intervene? 
And how do you work with respect to intervention?
    But I would like to ask Representative Gibson--and I thank 
you for your leadership, coming from Florida. I am not sure if 
you are from the area--forgive me for missing your testimony. I 
was on the floor. I only know the story of the youngster who 
was flat on his back and big hurly, burly people stepping on 
him. Is this Mr. Anderson? Is that the young man?
    Ms. Gibson. Yes.
    Ms. Jackson Lee. Help me understand why we should be 
questioning boot camps across the country and why it poses a 
severe problem, more so than it solves problems of youth crime, 
which I assume this young man was in because of some incident, 
criminal incident. And I assume maybe you are from this area. 
As I said, forgive me. I came in, and I am looking at some 
notes. But help us understand--I understand Florida has 
eliminated the boot camps?
    Ms. Gibson. Yes.
    Ms. Jackson Lee. By State action. Is it all gone? Or they 
are in the process of being eliminated?
    Ms. Gibson. No, following this Martin Lee Anderson 
incident, actually the boot camps were closed, and the children 
were moved.
    Ms. Jackson Lee. What year was that?
    Ms. Gibson. 2004 I think.
    Ms. Jackson Lee. Four. That is okay. Why don't I just let 
you answer the question and then, doctor, would you follow up--
Professor, would you follow up and tell us, if we wanted to 
overhaul this concept of boot camps and we wanted to find a fix 
and we are looking at a number of legislative initiatives, more 
intervention, what--eliminate it totally? Or is there another 
model that could be used?
    Representative Gibson, just tell us about the situation in 
Florida.
    Ms. Gibson. Well--and thank you. I think the video speaks 
for itself and speaks very loudly to the fact that folks 
obviously didn't know how to handle this young man. And there 
was a lack of training. There was a lack of consideration for 
his physical ability for him to do whatever it was that they 
wanted him to do.
    Ms. Jackson Lee. His size compared to their size.
    Ms. Gibson. Absolutely.
    And the fact that they had stuffed ammonia tablets up his 
nose is very egregious to me and I don't see how anyone looking 
at that and knowing what happened, that they could even think 
that the boot camp model works.
    The other part of that, I think I put in my testimony, is 
that as far as I know, boot camps are military in nature, 
designed to prepare people to go to war. We are not preparing 
our children to go to war. We are preparing them to come out 
and be productive citizens. And I don't think that the boot 
camps do that. Nor are they inclusive, as I said before--I 
think you were right--of deep therapy, mental health issues 
about--with our young folks today, we are finding that not only 
in Florida, but I believe across the United States that there 
are a myriad of mental health issues that certainly aren't 
addressed in a short-term boot camp. And the recidivism rate 
that I think we are after with our taxpayer dollars is not 
recognized. And the aftercare programs that some of the boot 
camps have had, the programs are very fragmented, and so there 
is no help actually for the child or the family.
    Ms. Jackson Lee. Quickly, Professor, do you have an 
alternative model, quickly?
    Ms. MacKenzie. The alternative would be to really use the 
programs that we know are effective, the treatment programs 
that include education, focus on drug use and drug education 
and drug problems like drug courts. Multisystemic therapy is 
another one that looks very promising. We have programs that--
cognitive skills would be another one. We have programs that 
are effective. We might want to try, given that the 
environments of boot camps--the staff and juveniles did say 
positive things about them--we might want to try small 
structured programs without the military basic training model.
    Ms. Jackson Lee. And the roughness that ensues?
    Ms. MacKenzie. The roughness.
    Ms. Jackson Lee. Let me thank you and I yield back. I thank 
the Chairman very much.
    Mr. Scott. Thank you. The gentleman from Georgia, Mr. 
Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Why is it that roughness would not work in terms of 
discipline, in terms of physical requirements? In other words, 
do the pushups, do the sit-ups, do the chin-ups, do the laps as 
part of the disciplinary process, as part of the teaching of 
respect of authority that sometimes many young men and women 
are missing and which can contribute to them being thrust into 
the juvenile justice system for a rebellious young person who 
has had no disciplinary guidance, who may not have achieved on 
a physical level, may never have done a pushup or a sit-up and 
who basically lacks respect for authority, couldn't boot camp, 
if properly administered and if supplemented with various 
psychological training methods and that kind of thing, couldn't 
it be something that could be positive, or is it--and I meant 
this question for both of you--or is it just the whole boot 
camp model needs to be just done away with because it has no 
merit whatsoever? Is that what I hear you all saying?
    And I am sorry that I was not here at the beginning of your 
testimony. So I didn't hear. And I am kind of asking this 
question out of some skepticism of tidbits of what I have heard 
just sitting here so far, and also probably a lack of knowledge 
about how to positively impact juveniles who have gone astray.
    So I will listen to your responses. Spare the rod, spoil 
the child. You know, those kinds of things that we have heard. 
You know, talk to me.
    Ms. Gibson. Let me start by saying this. I am the mother of 
two sons that I raised by myself. Both of them have graduated 
from college and I didn't spare the rod nor the mouth. In terms 
of physical activity as a way of disciplining young people, I 
don't think that it should be used that way.
    Mr. Johnson. It may not be just to discipline them, it may 
be to give them some discipline and also give them a means of 
achieving something and becoming more physical, helping with 
the psychosomatic issues. In other words I can achieve 
physically, I am strong, you know, I can commit myself to more 
positive pursuits as opposed to what got me in trouble in the 
first place; I can become Michael Jordan or somebody because I 
can achieve physically.
    Ms. Gibson. I made references earlier before you came to 
successes of wilderness-type programs and Outward Bound 
programs, and there is another program in Florida called About 
Face that is run by our National Guard. And these programs do 
have a physical component, rope climbing and things of that 
nature.
    But they also focus on team building and trust, in addition 
to the physical component, which is not present in a boot camp. 
If you get up at 0-dark-30, I call it, and are immediately 
subjected to running the track in the heat or just pushups, 
that to me does not instill discipline and doesn't allow a 
child to totally tap into some talents they may find in the 
rope climbing or in the canoeing or being out in the wilderness 
communing with nature, if you will.
    Mr. Johnson. Nothing positive about it at all? Getting up 
early in the morning, being required to do some laps?
    Ms. MacKenzie. As I said before, there does appear to be 
some positive attitudes in the boot camp toward the staff and 
the staff toward the juveniles. So there is something positive. 
My worry is with these injuries and deaths in the camp that the 
military--putting that basic training model in isn't effective. 
My research would say that it doesn't have an influence on 
later criminal activities. It is not criminogenic learning to 
change physically, it isn't really going to change you to keep 
you away from a life of crime. You may need consequences for 
your actions and that may be beneficial. But we could do many 
of these things in a different model of a juvenile facility, 
not using the basic training military model.
    Mr. Scott. Thank you very much.
    Let me just follow up with one quick question. The Ranking 
Member, Judge Gohmert, mentioned some of the aspects of 
programs that seemed to work; that is, when you have a boot 
camp with just the physical activities, it doesn't seem to 
work, but when you add in education, some of the psychological 
services, mental health perhaps, when you have that, 
particularly the education, that it makes a positive 
difference. That is also what I have been led to believe. Is 
that what research shows?
    Ms. MacKenzie. The research in that area is very limited. 
We don't have enough information and the programs don't appear 
to be very extensive in the boot camps. So the research--I 
would not make a strong statement about whether the boot camps 
that now exist that have treatment and therapy within the camps 
have an impact on recidivism. It is questionable at this point, 
the results of the research.
    Mr. Scott. Thank you. Judge Gohmert, do you have any other 
questions?
    Mr. Gohmert. Since we weren't able to get witnesses, people 
that I talked to, if I could just mention a couple of things. 
For one thing, you know, like my friend Mr. Johnson mentioned, 
there are some youth who have a problem being that they have 
never had any self-discipline, they have never been taught any 
discipline. And in talking to parents and teachers of those who 
have had boot camps--and when I say boot camp, apparently there 
is a little miscommunication, because I consider a boot camp 
not just to have the physical component, but to have these 
other components where education is a part, and the day boot 
camps with which I am familiar had the officers of the boot 
camp available any time of the day on call. They would show up 
and take the child out of the classroom who was being 
disruptive and talk to them. And teachers tell me they could 
not believe the difference in a child who began to learn and 
start to reach their God-given potential.
    I have had parents--there was one mother who said she never 
could get her child to go to bed, and one night she got fed up 
and she called the sergeant major that ran the boot camps and 
said, ``My son won't go to bed.'' He said, ``Put him on the 
line.'' She put him on the line and he said, ``Son, go to 
bed.'' And the kid went to bed.
    And she said, ``How did you do that?'' he said, ``Well, I 
don't know. We need to work on this a little bit.''
    But we found that many times the parents needed some 
training as an additional component because we are talking 
about youth. And Representative Gibson, I think you alluded to 
another issue. When you are dealing with youth, training 
becomes all the more critical because--Dr. Mackenzie, you are 
dealing with--these are not hardened adults. These are still 
moldable children. But Representative Gibson, you mentioned the 
STAR program and I don't know if it is the same thing, but that 
is what we were--the boot camps that I looked at in Texas back 
when I was on the juvenile board, they called themselves STAR 
programs and they had the additional components. But it just 
seemed like, Mr. Johnson--sometimes the discipline is needed in 
order to get their attention. And one problem we ran into--or I 
have heard from others--they would have kids get so motivated, 
turn their studies around, and then after graduating high 
school, want to join the military. And they would say, ``Well, 
you have had these problems in your background, so we really 
don't want you.'' and I hate to see that happen when somebody 
has turned their lives around.
    But anyway, I just wanted to mention that for the record. I 
have heard some great stories of people turned around. But 
certainly the detriment of losing a precious child requires 
extra training, requires extra accountability and monitoring. 
And I appreciate the opportunity to mention these other 
aspects.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you. And I would like to thank our 
witnesses for their testimony today. Members may have 
additional questions to ask. They will be submitted to you in 
writing and we would ask you to forward your answers as 
promptly as possible so they can be made part of the record.
    And, without objection, the hearing record will remain open 
for 1 week for the submission of additional materials, and I 
assume the gentleman from Texas may have additional statements.
    At this time, I would like to introduce for the record a 
statement from the Thayer Learning Center and one from 
Representative Hastings and Representative Corrine Brown.
    [The prepared statement of the Thayer Learning Center 
follows:]
    [The prepared statement of Mr. Hastings of Florida 
follows:]
    [The prepared statement of Ms. Corrine Brown of Florida 
follows:]
    Mr. Scott. Is there any other business to come before the 
Subcommittee? Without objection, the Subcommittee stands 
adjourned.
    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Prepared Statement of the Honorable Alcee L. Hastings, a Representative 
                 in Congress from the State of Florida

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Prepared Statement of the Honorable Corrine Brown, a Representative in 
                   Congress from the State of Florida

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
